                     WORKING TOWARD JOBS


                           The California

        Greater A venues for Independence (GAIN) Program




        i.P.VICES'




'0


     -llttrdm


OFFICE OF INSPECTOR GENERAL
OFFICE OF EV ALVA TION AND INSPECTIONS
                                                     MAY 1990
OFFICE OF INSPECTOR GENERAL



    The mission of the Offce of Inspector General (OIG) is to promote the effciency,
    effectiveness, and integrty of programs in the United States Deparment of
    Health and Human Services (HS). It does this by developing methods to detect
    and prevent fraud, waste, and abuse. Created by statute in 1976, the Inspector
    General keeps both the Secretar and the Congress fully and currently informed
    about programs or management problems and recommends corrective action.
    The OIG performs its mission by conducting audits, investigations, and
    inspections with approximately 1,400 sta strategically located around the
    countr.



OFFICE OF EVALUATION AND INSPECTIONS


    This report is produced by the Offce of Evaluation and Inspections (OEI), one of
    three major offices within the OIG. The other two are the Office of Audit
    Services and the Office of Investigations. Inspections ar conducted in
    accordance with professional standards developed by OEI. These inspections are
    typicaly short- term studies designed to determne program effectiveness,
    efficiency, and vulnerabilty to fraud or abuse.

    This technical report was prepared to describe the operation of the California
    Greater Avenues for Independence (GAIN) program. This technical report is par
    of a larger study which was conducted to describe the operation of a sample of
    mature, well-regarded and comprehensive work programs for AFC recipients
    and the insights of the administrators of those programs.

    This report was prepared under the diection of Emilie Baebel , Chief, Public
    Health and Human Services Branch. This project was lead by Suzanne Murrn
    that branch.
~~~~~~~~~         ~~~   ~~~~~ ~~~ ~~~~~~      ~~~~   ~~~      ~~~                  ~~~~          ~~~~




                                                              The California

            Greater Avenues for Independence (GAIN) Program




                                                            Richard P. Kusserow
                                                              INSPECTOR GENERAL




        ttt ttt          ttt          !tttt           ttttttt? tttt ttt (ttti;it          tftt          ttt ;ttt   t;i   tttttttti   ;i;1;i    ttt itt iit
OEI-12-89-01321                                                                                                                               MAY 1990
                                        . . . . . . . . .. .. .. .. .. .
                                 . . . ."
                                  ..................................   . .
                                                                         . . . . . . .                                              .. .. ... ... ........... ... ..
                                                                                     . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .                              .




INTRODUCTION


PROGRAM PROFILE.                                                                                                                      ...........2

           THE STATE OF              CALIFORNIA.




           THE CALIFORNIA AFDC PROGRAM                                                     ...........................2

           THE CALIFORNIA AFDC WORK PROGRAM.                                                             ......................2

                   General Background. .
                   Administrative Issues                                                                                                                         . 3


                   Participation Issues. .                                                                                                                       .5
                   Program Activities                                                                                                                       ...6

Appendix A
           OVERVIEW STATEMENT.                                                                                                                              . A- 1



Appendix B

     SAMPLE DOCUMENTS                                                                                                                                       . . B- 1

             This technical report is par of a series of
             profies on the Aid to Familes with Dependent
             Children (AFC) work programs parcipating
             in the Working Toward JOBS 
    project.

             Each profie begins with a categorized
             description of the subject AFC work program,
             which is based on mai guides submitted by the
             progr. Appendix A includes an overview
             statement wrtten by the program manager. It
             describes the program, its goals. philosophy and
             lessons leared. Appendix B is a sample of           !!I!I

             documents used to conduct the program. Each
             program administrtor was asked to submit
             sample documents which they felt would be
             useful to States and counties developing JOBS
             programs.

             Data collection for this study was done from
             Apri to September of 1989. The infonnation in
             the overview and technical reports is based on
             pre- JOBS work programs for AFC recipients.
             As these programs have converted to JOBS,
             they may have made some changes to meet
             JOBS legal and regulatory requirements.
             Where possible, we have noted the changes the
             program administrators anticipated at the time     :II: !I.


             of our data collection.




California                                  INTRODucnON
THE STATE OF CALIFORNIA

              Population: 27, 996,
              Major industres: service, retail trade, manufacturg
              First quarer 1989 unemployment rate: 4. 97 percent
              Annual income for a family of four: $12
              Number living below the povert line: 3, 441 786

THE CALIFORNIA AFDC PROGRAM

              For Fiscal Year (F) 1988:
              Total cost: $4 285, 200,
                            271 100, 000; State share: $2, 014 100, 000
              Federal shar: $2
              Number of AFC cases: approximately 600,
              95 percent in urban settigs; 5 percent in rual   settngs
              Client averages:
                                 Age: 34

                               Number of children in grant: 1.9
                               Age of youngest child in   grt: 1 year
                               Length of spell on AFC: 16. 6 months
                               55 percent have been unemployed 2 years or more
                               38 percent have been previously employed for 1 month or more
              Total FY 1988 case closures: 11 802
              Closures after paricipating in work program: 2, 675 as of June 1988



THE CALIFORNIA AFDC WORK PROGRAM


General Background

Name:         Greater Avenues for Independence (GAIN)

Operating Since: 
        GAIN began operating in June 1986. The State legislation provides
              for phase- in of al parcipants though 1991.

Philosophy:          GAIN is designed to provide welfare recipients with a full range of
              employment-related training and supportve services. The major thrst     of the




California                                       PROGRAM PROFILE
             program is diected toward assisting AFC program applicants and recipients to
             obtain skills and opportunities that lead to un subsidized jobs.   The goal of the
             progr is to assist all able-boded welfare applicants and recipients to become
             economicaly self-suffcient.

             The program is based on certain principles:

             ( 1) paricipants should be able to make choices about their program path and they
             should be required to live up to the responsibilties involved with these choices;

             (2) parcipants should be provided early progr opportunities to obtain jobs;

             (3) program expenditues should be tageted where they can do the most good;

             (4) the State and counties have an obligation to provide sufficient services to
             parcipants to meet their needs, and to underte an infonnation campaign to
             make potential parcipants, employers and the public aware of the opportunities
             and values associated with the program; and

             (5) new programs should be good investments of public funds; additional system
             costs should be incured only when they are likely to result in long-tenn personal
             and community pay-off.

Program Administrator:
             Kathy B. Lewis
             Chief, Employment Programs Branch
             California State Deparent of Social Services
             744 P Street, Mail Stop 6- 140
             Sacraento, CA 95814
             (916) 323- 1321

Administrative Issues

Structure:      Loal level GAIN administration is done through the county welfare
             deparents (CWs). The CWDs both deliver and coordinate delivery of
             services to paricipants (i. e., CWDs can contract for most parcipant services).
             Before counties implement their GAIN programs, they are required to develop a
             plan that specifes the arangement and method by which employment, training,
             and supportive services wil be provided to GAIN parcipants. Counties must
             conduct labor market, parcipant, and child care needs assessments, and must
             offer an adequate range of services targeted to those needs. In developing plans,
             counties must integrate input from other servce providers (such as community




California                                     PROGRAM PROFILE
                 colleges, county offces of education , Job Training Parnership Act (JTA)
                 Service Delivery Aras, and child care programs) to ensure the adequacy and
                 coordination of services. Counties must also identify any unmet needs and
                 include a proposal to meet those needs.

                 Each county GAIN plan must be approved by the County Board of Supervisors at
                 the local level and by the Deparment of Social Services at the State level.
                 Counties must update their plans annually.

                 The State meets on a monthly basis with the County Welfare Dirctors
                 Association and its varous subcommittees to ensure their input in program policy
                 development and decision-makng.



                 A profie of how the County of San Diego operates the GAIN program is
                 included in the Offce of Inspector General "Working Toward JOBS: The County
                 of San Diego Greater Avenues for Independence (GAIN) Progr " inspection
                 report.

Funding:            For State Fiscal Year 1989- 1990 total projected expenditures for GAIN
                 (excluding additional costs due to JOBS implementation) are estiated at $331.
                 millon. Of this amount , $102.4 milion is funded with existing community
                 resources. The amount of supportive services included in this estimate is $56.4
                 millon.

Staff:           GAIN is supervised by the State Deparent of Social Services Employment
                 Programs Branch which is stafed by 48 employees. This branch is divided into
                 two bureaus. The policy burau is responsible for developing State employment
                 services policy, regulations and other diectives; dissemiating that information to
                 the counties; and ensurg that policies and regulations are properly interpreted.
                 The operations bureau reviews and approves county plans and budget proposals,
                 provides technical assistance, monitors and evaluates the program, and acts as
                 liaison to the County Welfare Dirctors Association.

                 GAIN is administered at the county level by the county welfare deparments.

Success Measurements: 
         California measures GAIN' s success by calculating resulting
                 employment and AFDC savings.

Recordkeeping:             California s 58 counties have varous electronic data processing
                 systems. There are established electronic data processing functional requirements
                 of GAIN which the counties utilze. Each county is required to submit to the
                 State the following reports: GAIN monthly activity report indicating activity by
                 each program component; GAIN quarerly characteristics report; quarerly




California                                         PROGRAM PROFILE
               administrative expense claim report; and two annual reports, the GAIN county
               plan update and county GAIN budget proposal.

Provision of Services/Outside Resources:            Because California has 58 counties which
               operate independently, each welfar deparent decides on the objectives of its
               program, within the pareters of State regulation. Many of the service
               components are subcontracted to outside agencies. For example, Napa county
               contracts orientation , appraisal, many case management services and job search
               services to the JTPA. Many other counties choose to provide those services
               themselves.

Evaluations:          The Manpower Demonstration Research Corporation (MDRC) is under a
               multi- year contract with the State Deparent of Social Services to evaluate
               GAIN, with the final report due in 1992. Two interim reports have been released.

Participation Issues



Participant Descriptors: 
       In FY 1988, approximately 125, 00 registered, while 92, 750
               parcipated beyond    registration. The average age of parcipants was between
               30- 34 years. Approximately 67 percent have less than a high school education.
               All other averages are the same as for general AFC population.

Target Groups: 
        The State program does not establish taget groups. It has created a list
               of factors by which clients are to be excluded from the program should there not
               be enough resources to provide services to al clients. In order of fIrst excluded
               these are: (1) AFC- Unemployed Parent (U) applicants, (2) AFC applicants,
               (3) AFC or AFC-UP recipients, excluding teen-age parents, who are exempt
               volunteers, (4) AFC-UP recipients on aid for less than 1 year, (5) AFC-
               recipients on aid for less than 2 years, (6) AFC recipients on aid for less than 1
               year, (7) AFC recipients on aid contiuously for less than 2 years, (8) volunteer
               teenage registrants, and (9) all remaining AFC recipients, with recipients
               receiving aid the longest the last to be excluded.

Mandatory Activities/Sanctions: 
        A nonexempt recipient must parcipate in orientation
               and appraisal and any of the other progr components agred upon in the
               contrct activity agreement between the CW and the parcipant.
               Approximately 100 sanctions were imposed in FY 1988 for clients who did not
               comply with GAIN mandatory activities.

Volunteers:         Between 10- 15 percent of GAIN paricipants     are volunteers.




California                                       PROGRAM PROFILE
 Employment Placements: 
         Approximately 37, 000 full-time placements were made in
              calendar year 1988. Over 10, 00 AFDC cases have been closed as a result of
              placements into subsidized or un subsidized employment. The average staring
              wage is $5. 86 per hour. There is no follow-up information available because of
              the newness of the program.

 Program Activities

Sequencing:          GAIN uses a sequence of service components that paricipants are required
              to follow. The parcipant flow char appears in the sample document appendix
              on page 12 in the GAIN guidebook.

Program Activities Listing: 
        Because California s 58 counties ar responsible for
              admnistering GAIN , each county s operations var in order to meet local
              conditions. As such , information on how GAIN services ar provided is county
              specific. The State GAIN offce has submitted descriptions of the varous
              categories of activities included under GAIN and the number of statewide
              parcipants. All parcipation figures are for FY 1988.

Orientation/Assessment/Employabilty Planning


Activity:       The CWD obtais     information   that assists in determning the status of the
              registrant and provides forms for the Federal and California jobs tax credit. 

              self-appraisal form completed by the registrant may be used. Information
              collected includes: (1) questions related to deferral criteria, (2) employment
              background, (3) AFC history, (4) current education and training activities, (5)
              educational history and competency, (6) need for supportve services.

              The CWD determnes deferrals, re-emphasizes to non- deferred registrants GAIN
              services, their responsibilties, consequences of failure to paricipate, and their
              rights. The CWD also determnes which component the registrant should be
              assigned to and the registrant s need for educational and supportive services.

              The CWD enters into a basic contract with the paricipant, using information
              gained in assessment and parcipant s employment goals.

Participants: 28, 792.




California                                       PROGRAM PROFILE
 Supportive Services
Activity:       Child care services ar avaiable to every GAIN parcipant with a child under
              12 years of age who has indicated the need in their basic or amended contract.
             The CWDs are encouraged to contract with existig public and private child care
             programs to provide any or all of the serviceso Child care services aranged by
             the paricipant may be paid for under GAIN . provided those costs do not exceed
             regional market child car cost rates. If a GAIN registrt tenninates AFC
             dependency due to unsubsidized employment, payment for child care services is
             available for a trsition period of 3 months. Transporttion costs ar paid for
             every parcipant to and from his or her GAIN assignment, including
             transportation to and from the child care provider, and transportation for children
             to and from child care. Ancilar expenses shal be paid when necessar up to a
             maximum of $450 per parcipant. These include books, tools, clothing, fees and
             other necessar costs of a work or traiing assignment. A person who has
             personal or family problems that are jeopardizing the successful outcome of the
             employment plan is referrd to appropriate servces to help them and their family
             adjust to the job training assignment.

Participants: 118, 612.


Planned Changes: 
        GAIN wil make the necessar changes to confonn to JOBS
             regulations regarding child care reimbursement and 12 month transitional child
             care.


Education

Activity:      Adult basic education is pre-employment basic education . which includes
             readig, wrting, and arthmetic    necessar for employment or job trning,
             includig high school   proficiency.

             College and community college education provides suffcient employment skills
             training that can reasonably be expected to lead to parcipant employment.

             Vocational English as a second language is intensive instrction in English for
             non- English speakg paricipants which is coordinated with specifc job traiing.

            Utilization of self- initiated education programs or an educational program entered
            into as the result of the employment plan shall not exceed 2 academic years.




California                                     PROGRAM PROFILE
Participants:            18, 304 for all educational activities. Those who score below the
                certfication level on the appraisal test are automatically referred to adult basic
                education.

 Employment Services

Activity:         Job club consists of job search workshops and supervised job search.

                Job search workshops are group training sessions where parcipants lear varous
                skills including how to seek out a job, job development, understading employer
                requirements and expectations, and how to enhance self-esteem , self- image, and
                confidence.
                Supervised job search is an organized method of seekig work which includes
                access to phone bans in a clean and well-lighted place, job orders, and diect
                referrs to employers. This process is overseen , reviewed and critiqued by an
                employment counselor. The amount of activity requird durng the supervised
                job search period is detennined based on the parcipant s employment history
                and need for supportve services.

                Unsupervsed job search parcipants independently seek work and make periodic
                progress reports no less frequently than every two weeks to the CWD or the
                agency contractig with the CWD. The CWD or agency may veriy the reported
                job search efforts.

                Job placement activities include but are not limited to referrals to jobs listed by
                employers with the Employment Development Deparent s State Job Service.

                Job development paricipants are provided active assistance in seeking
                employment, on a one- to-one basis, by an employment counselor.

                Employment counseling is aimed at helping the parcipant reach an infonned
                decision on an appropriate employment goal, and is perfonned by an employment
                counselor.

Participants: 12           110.

Anticipated Changes: 
          In order to comply with JOBS, job search activity, whether group
                or individual, has been limited to a total of 16 weeks in any 12 ponsecutive month
                period. Of these 16 weeks, at least 8 must be in conjunction with other
                employment or training activity. Additionally, with the implementation of JOBS,
                program paricipation by an applicant is limited to job search.




California                                         PROGRAM PROFILE
On-The-Job Training/Work Supplementation

Activity:         On-the-job training is subsidized employment in which a parcipant receives
                job skills training from an employer. At the end of the training, it is expected that
                the paricipant wil be retained by the employer.


                Counties implementing the work supplementation program ar requird to utilze
                grant diversion for the purpose of providing and subsidizing jobs, including
                supported work and transitional employment. Grant diversion is a funding
                mechanism for subsidized employment, in which the parcipant s grant or a
                porton thereof is diverted to the employer as a wage subsidy.

Participants: 296.




Community Work Experience/PREP

Activity:         Nonsalared work experience with public or private nonprofit agencies under
                the pre-employment preparation activity. Basic PREP provides work behavior
                skills and a reference for future unsubsidized employment. Advanced PREP
                provides on- the-job enhancement of existing or recently acquired parcipant
                skills.

                Short- term PREP is limited to 3 months. Long-term PREP is limited to 1 year.

Participants:            326 in short-term PREP, and 42 in long-term PREP.

Anticipated Changes: 
         To comply with JOBS, California has modified the formula for
                computing the number of hours a parcipant is required to work each month in a
                CWEP assignment. The modifications to the formula guarantee that the hours
                required per month wil never exceed the maximum hours established under
                JOBS.


Other Work Experience (Vocational Training/Education)

Activity:         Vocational training includes training in employer-specific job skills in a
                classroom or onsite setting, including training provided by local private industr
                council programs and community colleges.

Participants: 5, 540.




California                                         PROGRAM PROFILE
Case Management
Activity:     Case management activities generally consist of conducting program
            orientations and appraisals, monitoring registrants who fai to appear at the
            program orientation, assigning paricipants to activities, aranging supponive
            services, monitorig program parcipation and authorizing sanctions.




California                                   PROGRAM PROFILE
                                                                            Appendix A



CALIFORNIA GAIN PROGRAM OVERVIEW STATEMENT
            (August 1989)


        GAIN, which stads for Greater Avenues for Independence, was created in 1985
        in biparsan State legislation which represented a landmark welfare employment
        initiative in Calornia as well as the Nation. The progr has provided job

        training, education and employment opportnities to more than 125, 00 enrollees
        since State Fiscal Year 1988.


Principles


        GAIN is designed to provide welfare recipients with a full range of
        employment-related training and supportve services. The definitive goal of the
        program is to assist Aid to Familes with Dependent Children (AFC) applicants
        and recipients to obtain skils and realze opportunities that lead to jobs which
        provide the means towards family self-suffciency.

        GAIN is based on the following principles:

                Parcipants should be  able to choose between program options and be
                responsible for following though;

                Job opportunities should be provided from the earliest point and thoughout
                paricipation;

                Resources should be diected cost effectively;

                Necessar services must be provided to paricipants to meet family needs
                and support parcipation;



                Potential paricipants and the public should be provided infonnation to

                make them aware of the program goals, objectives, services, opportunities,
                rights and responsibilties;

                No paricipants should be set aside in an unassigned pool;



Callfomia                                   OVERVIEW STATEMENT                            A -1
               New progrm investments should be undertaken with cost-effectiveness as
               the primar consideration.


Program Design


         Applicants and recipients of AFDC whose youngest child is at least 3 years old
         must paricipate in GAIN (unless they have an acceptable reason for exemption)
         and are classified as mandatory registrants. Those with childrn under 3 years old
         and those who ar otherwise exempt may volunteer to parcipate and
         encouraged to do so. Mandatory registrants may be temporarly deferred from
         parcipation for specifed reasons.

         Registrants are appraised (apprasal is the initial assessment) by the County
         Welfare Deparment to determne the prelimnar employment goal and the
         appropriate component for initial paricipation. As this time, parcipants are
         tested to determne their need for Adult Basic Education. In addition , background
         information such as employment history, prior AFC receipt and other
         information are recorded in order to assist in parcipation decisions and
         requirements as well as supportve services to be provided. GAIN activities and
         components are listed below in their most common order of progression:


Initial Components

               Appraisal;

               Job Club, Supervised Job Search and other job search services;

               Adult Basic Education, which includes basic educational skils training,
               English language instrction ,
                                           high school equivalency instrction , etc;

               Assessment, which includes an in- depth evaluation of the paricipants work
               history, education , skills , interests, aptitudes and other relevant factors and
               is used to reverse or validate the paricipant s original employment plan and
               determne additional GAIN activities which would contrbute towards
               achieving that plan.


Post-Assessment Components
               Employment-related education including self- initiated programs;

               Job training which includes classroom as well as on-the-job training;



California                                 OVERVIEW STATEMENT                               A -2
                   90 day job search services, which is job search activity occurrng after an
                   education or training activity;

                   Work supplementation program activities which include supplemented
                   employment, transitional employment and supported work;

                   Pr-employment preparation , which is a modified community work
                   experience progrm.


             GAIN is a mandatory program, but we do not put our emphasis on penalties. The
             rationale for the mandatory natue of the program was expressed by one of the
             program parcipants in a recent interview with the Washington Post. She said,
               If they (progr managers) didn' t do it like that (clients) wouldn' t come. I
             heard a lot of people saying that at the orientation. " Program requirements may
             initially get people to the orientation, but once clients get though the front door
             it is our job to communicate the advantages of the GAIN program, because
             ultimately, individuals must parcipate wholeheardly, and not primarly because
             they are required to, in order to be successful. In many cases, the hardest thing to
             do is to show clients that they are capable of makng it on their own and
             achieving economic success.

             One of the origial   key   components of GAIN is Adult Basic Education (ABE).
             Probably the single most common characteristic of most AFC recipients is low
             educational attanment. California    s GAIN was one of the first programs to face
             this problem head-on by large-scale testing, marshallng the resources necessar,
             and providing ABE services to GAIN clients who need them. We believe that
             ultimately, this strategy wil have a profound impact on long-term welfar
             dependency.


Implementation Of JOBS Provisions

             In June 1989, enabling State legislation was enacted to incorporate the provisions
         of the Job Opportnities and Basic Skills Traiing (JOBS) program , as contained
         in the Family Support Act of 1988, into GAIN beginning July 1 , 1989. The
         GAIN program aleady emboded all of the major components offered in JOBS,
             although with some significant differences in definitions and design. Therefore
         JOBS implementation here should be much simpler than in some other Stares
         which wil be building from the ground up.

         I would like to shar some of the lessons we have leared from our experience
         with GAIN in the hope that they provide some guidance to faciltate JOBS



California                                     OVERVIEW STATEMENT                            A -3
             implementation in other States. GAIN is analogous to JOBS in many respects,
             and because of this, we believe our GAIN experience may be helpful.

Implementation Lessons


             One of our most important early lessons was that planning takes tie and that the
             best planning uses an open process which includes the afected agencies that are
             the most liely resources: the education and traiing providers , child care
             resource and referral agencies and other organizations both at the State and local
             level. Their early involvement ensurs the most successful implementation , since
             without them there is no service delivery system or, at best, a fragmented one.

         Another important lesson is that implementation taes more time than anyone
         wil anticipate. Negotiatig contracts with training providers takes time. Issues
         surounding what wil be paid for, what reportng and tracking requirments are,
         what the agencies ' roles are and numerous other questions all take time to be
         resolved and negotiated. To ilustrate this with a specific example, local welfare
         deparents found out that their number of referrals to trning providers was far
         lower than anticipated. This caused problems for providers who had set aside
         slots for GAIN parcipants, had hired staff, and set up space. The lower than
         anticipated number of referrals to training providers was due to a greater than
         anticipated need for Adult Basic Education prior to traiing. Educational
         providers experienced a slower rate of parcipation due to a number of things: no
         shows at orientation , the ability of the welfare deparent to process parcipants
         timely, the time it took parcipants to make arangements for child care and the
         no-shows at the provider. Resolution of these problems took many months. The
         Deparent of Health and Human Services and States should realize that they
         need to be prepared to spend the necessar time to deal with these kinds of
         problems and to move cautiously on expanding their service delivery networks.

         Tracking and monitoring of GAIN (and JOBS) parcipants requires automated
         systems. These systems unfortunately tae tie to develop, install , test and
         debug. In California, delays in settig up automated systems initially made
         trcking and monitoring clients a nightmar. As these systems have been
         installed and perfected, they have made the case managers ' jobs more
         manageable. They are critical for States to have in place to report on parcipation.

Flexibilty

         GAIN has evolved by design into 58 dierent program varations in all 58
         counties based on a single unifying program model and purpose. Similarly, JOBS
         wil evolve into at least 50 different program varations in each of the States, all
         with differig local conditions, philosophies, constraits, clients, resources, etc.


California                                   OVERVIEW STATEMENT                             A­
         This can either be characterized negatively in tenns like nonunifonn and
         inconsistent, or it can be viewed positively, in tenns like innovative and creative.
         Our approach in Calfornia has been the latter. We believe that the program must
         adapt to the environment, and not vice-versa. This is achieved by allowing
         maximum reasonable local program flexibilty within the overall program
         framework. Each county operates GAIN based on its own unique State-approved
         operating plan. The result has been that local agencies have ownership in their
         programs which reinforces responsible local administration.

         Passage of the GAIN Act was only the fIrst step of an expedited, but very
         involved implementation proess. Next came 9 months of preplanning. The fIrst
         county did not begin implementation until 1986 with the last in April of this year.
         We do not expect full phase- in of the caseload unti 1991. Counties were given 2
         years for planning and many of the larger counties took the full 2 years. Durng
         the phase- in process, later implementig counties leared from the experience of
         early operational counties. So did we as State administrators. We leared that not
         all obstacles or solutions can be anticipated in advance and that flexibilty is as
         importt as preplanning. We point this out in order to emphasize that you can
         expect full implementation of JOBS to tae a long time.

:aseload Phase-In


         Statewide implementation , i.e. , in all political subdivisions, does not mean that
                    Aid to Familes with Dependent Children (AFC) caseloads in all of
         the States '
         those jursdictions   ar fully phased in. There is no shortcut or magic wand that
         can be waved over the AFC population which wil instantly convert them all
         into JOBS parcipants. Instead, a series of painstakng incremental steps must be
         taken in order to achieve the conversion. The following are some of the crtical
         things which must be accomplished in order to successfully accomplish the
         trsition:
                In- depth planning and laying the necessar groundwork;

                Developing components, providers and contracts;

                Developing procedurs;



                Developing tracking and reporting systems;

                Infonning enrollees how the program can benefit each of them individually
                and of their rights and responsibilties; 





California                                 OVERVIEW STATEMENT                               A -5
               Learing what works and      what doesn t and developing solutions;

               Dealing with the unexpected.


         In our experience with GAIN , although shortcuts can seem appealing, they don
         often work. Therefore, the only practical approach to converting an existing
         caseload to JOBS is to allow suffcient time to accomplish al of the necessar
         steps and to maintain the flexibilty to deal with contingencies.

         One final thought is this: don t listen to the skeptics who say it can t be done or
         that it won t work. With a positive attitude, dedication and determnation , the
         JOBS program, like GAIN , can be a success in your State and make a clear,
         positive difference in paricipants ' lives.




California                                  OVERVIEW STATEMENT                             A -6
                                Appendix B





California   SAMPLE DOCUMENTS           B.l
       GREATER

GAIN   AVENUES FOR

       INDE PE NOE NCE




   GAIN GUIDEBOOK
    Welcome to 

                               GAIN
      You've probably already heard or read a

lot about GAIN's education, job training,
counseling and employment opportunities. Now
that you are participating, we d like you to
know more about GAIN and what it can do
for you.

      As you read through this Guidebook
you'l see why GAIN is truly a program that is
going to work for you and your children.
    This Guidebook is your GAIN manual. It
covers most of the details you wil need to
know to participate in GAIN. To make it easy,
we have broken the Guidebook into nine
sections.
    Table of Contents

Section 1- What GAIN Is And What GAIN
Can Do For You " explains how      the program
benefits everyone. See page 3.
Section 2- Who Must Participate "      explains
who must participate and who can volunteer.
See page 3.

Section 3- Who Doesn t Have To Participate
lists the kinds of people who do not have to
participate, and the reasons why a person who
is registered does not have to participate. See
page 4.

Section 4- The GAIN Program " describes all
the steps in the process that wil help you find
a job. See page 


Section 5-    Supportive Services " describes the
child care and other services that the county
wil provide for you while you are in GAIN.
See page 7.

Section 6- Your Contract " explains how you
and the county wil work together on a plan
that wil help you find a job. See page 8.
Section 7- " Good Reasons For Not Participat­
ing " lists the good reasons which may keep you
from participating in a GAIN activity that you
had agreed to in your contract. See page 8.
Section 8- What Happens If You Do Not
Participate " explains your rights and how you
can solve problems that have kept you from
participating in GAIN. See page 10.
Section 9- What You Can Do If You         Do Not
Agree " tells what you may do if you don
agree with the county about your participation
in the GAIN program. See page II.
Sect.ion 1
                                                  Section 2


What GAIN Is And                                             Who Must
What GAIN Can Do                                             Participate?
For You                                                      If you are an Aid to Families With
                                                        Dependent Children (AFDC) applicant      or
        GAIN stands for Greater Avenues for             recipient , and you are not exempt or
Independence.                                           deferred, you must participate in GAIN. You
    The purpose of the GAIN program is to               would be called a mandatory participant.
teach. train. counsel and help you find a job.               Note: Some counties also require
When you become self-supporting, you and                applicants and recipients of other cash aid
your children wil enjoy a higher income and
            programs to participate in GAIN.
a better way of life.                                        The county wil figure out if you must
    GAIN was designed          with you in mind.        participate in GAIN when:
It' s
  not just another government program. It'                 . you apply for aid; or
much more than that.
    GAIN is with you every step of the                     . your eligibilty is redetermined; or
        way, providing you with such important
            . you have a change in your exemption
        supportive services   as child care,                 or deferral status.
        transportation and work- or training-
        related expenses.

                                                             Even if you are exempt and you do not
    . GAIN helps you get the skils that are
                                                        have to participate in GAIN, you can
        needed in today s work force. You could         volunteer. You would be called a voluntary
        become a technician ,   salesperson
                                                        participant.
        assembler or   anyone of hundreds of                 If you wil be a GAIN participant,   the

        other professionals. You'l learn skils          county wil send or   give you a GAIN
        that wil help you get a job in your
                                                        registration notice. This wil tell you that you
        local labor market.                             are now in GAIN.
Private industry and businesses           throughout
California are also actively involved.

     Once you     re in GAIN and have been
trained, you ll have a better chance at getting a
job you want.

     Everyone wins. You gain a job and a

future. Private industry and business          gain a
skiled work force.
                                                                                ...




 Section 3
 Who Doesn t Have To                                                                        J'j.
 Participate
 Exemptions                                            Deferrals
      You are exempt and do not have to                     DefeITal does not exempt you. DefeITal
 panicipate in GAIN if you:                            means that when a temporar situation keeps you
   . Are under 16 years    old.                        from tang par in the program, you do not have
                                                       to parcipate until the temporar situation
    . Are 16, 17 or 18 years old and go to             changes. Under certn circumstaces, you may
 school (not college) full-time.                       be defeITed if you:
   . Are temporarly il or have an injur                   . Ar drg or alcohol dependent.
that would keep you from working.                         . Have emotional or         menta problems.
   . Are 65 years old or   older.                         . Are   havig legal diculties,      such as
   . Are physically or mentally     unable to work.   required cour   appearances.

   . Are pregnant and the baby    is due within           . Do not have the   legal right to work in
six months                                            the United States.
   . Live so  far away from the welfare offce            . Are having a severe  famly crisis.
or service provider that you cannot                      . Are in   good stading in a union that
parcipate.                                            controls refeITs and hirg.
   . Must stay at home to tae care                       . Are temporary laid off from a job but
someone in the household who is unable to             have a defite cal-back date.
care for himself or herself.                             . Are    workig 15 or more hours per
   . Work or   expet to work 30 hours or              week.
more per week in regular employment that                 . Have a    tempora iless or have a
should last at least 30 days.                         famly     member who is temporary il.
   . Are the parent  or caretaker of a child             . Are in the fit thee months of        pregnancy.
under thee years old , and are responsible for


If
                                                         . Are a parent    who has a chid age 3, 4 or
providing care for the child.                         and are enrolled in school for at least 12 unts
                                                      credit.
     Note I:
   you are a parent who is under 20
years old and don t have a high school diploma or        . Are a 16 or 17 year old parent, do not have a
GED , diferent rules apply to you. You must           high school diploma and are not curently in
parcipate no matter how old your child is, unless     school.
you have another reason to be exempt.                    . Are a parnt who is not the prcipal eaer
                                                      or an adult relative carg for a child, when the
      Note II: If you are the parent or caretaer of   pricipal eaer or other aided adult is in the
a child age thee though five and are responsible      home and is parcipating in GAI.
for providing care for the child, you are only
required to parcipate up to 20 hours per week.             Note: Your county    may ask for proof
                                                      when you clai any of the above exemptions
                                                      or defeITals. Your GAI worker can review
                                                      your situation at any time. DefeITals wil be
                                                      reviewed at leat every six months.
                                                                                    .'   . \\
Section 4


The GAIN Program

     There are many paths for GAIN
participants.
     Your path may not involve every      step of
the GAIN program. A lot depends on your
education and job history. Each step is
described below and shown on the chart
the back of this Guidebook. This wil help
you understand what choices you have and
how you wil move through the program.

      Let's start at the beginning.
     APPRAISAL-The         county wil decide if
you are required   toparticipate in GAIN. If
you are exempt or deferred, you wil not
have to participate in GAIN. Exemptions and
deferrals are explained in Section 3.
    Shortly after you enter the program, you
wil be given a test. This test wil help the             The next step in the program is based
county decide if you need to go to school.          on your past or current aid status and job
Your worker wil look     over your work             history:
history. education and your test results , and            .If you have been taken   off aid two or
sign a contract with you. The contract is           more times in the past    three years because of
described in Section 6.                             employment, you wil       immediately move on
     BASIC EDUCATION SERVICES-Your                  to the Assessment     activity of the GAIN
education is important to GAIN. If you              program.
haven t completed high school, or do not                  .If you haven   worked for two or more

have basic reading or math skils, or do not         years. you wil go to Job Club.
speak English, you wil go to an educational               .If you've had a job during the   last two
activity.                                           years, you can choose to go to either Job
     ADULT BASIC EDUCATION teaches                  Club or Job Search.
 ead ing and math skils necessary to get a               JOB CLUB-Job Club lasts for up to
Job or go on to other GAIN activities.              three weeks. First you learn how to prepare
     ENGLISH- AS- SECOND LANGUAGE                   applications and job resumes, how to
teaches you English skils if you do not speak
      interview and   howto find jobs. This is
English.                                            followed by supervised job search. If you
     GED CLASSES prepare those who do               don t find a job at the end   of the Job Club,
not have a high school diploma to get a
            yOU wil move on to the Assessment activity
GED certificate.                                    of the GAIN program.
     Note: You can choose to complete your               JOB SEARCH-County workers wil
schooling before, during or after your
             give you job    interview leads and help you
participation in Job Club or Job Search.            look fl)r a job. If, at the end of three weeks,
                                                    you have not found a job, you wil move on
                                                    to the Assessment activity of the GAIN
                                                    program.
                                                                                          ..




     SELF- INITIATED PROGRAMS-                    cash aid could be used to help pay for your

you are already in a job training or              wages (grant diversion). You wil contin e to
education program that the county determines      receive at least as much as your cash ald.
wil likely lead to a job, GAIN wil allow               VOCATIONAL TRAINING wil teach
you to continue this program. Supportive          you to qualify for a specific job. This . is
services wil be provided if needed.
                                                  generally provided in a classroom settmg.
Participation in self- initiated programs is
limited to two school years.                           TRANSITIONAL EMPLOYMENT wil
                                                  train you for a certain type of job in an
     ASSESSMENT-The goal of this                  actual work setting. The job is set up for you
activity is for you and the county to put         and may involve some other training before
together an employment plan to help you get       you begin. You wil get a paycheck but all or
a job. To do this, the assessor   wil look at
                                                  part of your cash aid wil be used      to help
your abilities, interests, achievement tests,     pay for your wages (grant diversion). You
work history and education. Then you wil          wil continue to receive at least as much
work closely with your GAIN worker or the         your cash aid.
assessor to set up   employment goals and
t-rnetables and to decide   the help you'l need
                                                        SUPPORTED WORK wil teach you
to meet your goal. If you and your GAIN           basic skils while working. Along with other
worker can t agree on what step you wil go        participants, you wil receive intensive su port
to next, a review wil be . made of your           services, training, supervision and counseling
assessment and employment plan. (See              to help you handle job duties. You wil get a
Section 9.                                        paycheck but all or part of your cash aid
                                                  wil be used to help pay for your wages
     Your employment plan wil help you and
the county decide what your next step wil         (grant diversion). You wil continue to receive
be. This can include                              at least as much as your cash aid.
                                 activities:
                       the following
     SHORT TERM PREP- PREP means                        EDUCATION AND JOB SERVICES.
Pre- Employment Preparation. Short term           These activities could be college courses,
PREP lasfs for up to three months. During         vocational English-as-a- Second    Language, or
that time you wil train and work with a           adult education. You might receive      special
public or private non- profit organization like   services to help you learn how to find a job.
the Y M C A to gain work experience and           These could include job search workshops,
develop your skills. You wil not get wages        supervised job search , unsupervised job
but you wil keep getting your cash aid and
other benefits.                                   jobIf youplacement.
                                                  search, job counseling, job development or



     You may go to BASIC PREP which will                     have completed your tramlng or
give you experience and training in the           education but don t find a job right away,
working world, and wil prepare you for            you wil be referred to 9ODAY JOB
future training. Or you may go to                 SEARCH. During this period, job services
ADVANCED PREP which wil give you                  wil be   set up based   on your   individual
additional training to increase job skils   you   needs.
already have.
                                         LONG TERM PREP-If you              don
    ON-THE-JOB TRAINING wil allow                 successfully complete your training
you to learn a job skill while working. You                                  referred to
                                                  education program, you wil be
wil get a paycheck , but all or part of your      long-term BASIC PREP. The purpose of this
                                                       Section 5


                                                       Supportive Services

activity is to improve work skils and                 GAIN understands that you may need
attitude. This assignment wil be for up    to      more than just training and job counseling to
one year and wil be   reviewed after six           take part in the GAIN program. That is why
months.                                           your county wil help you arrange and/ or
     If you don t find a job during the 90- day   pay for child care, transportation and other
job search period, you wil be assigned to         supportive services described below. If you
long-term ADVANCED PREP. This                     need it and ask for it , your county wil give
assignment will last for one year unless you      you the money for your supportive services
find a job first. Your PREP assignment will       before the  service is used. That way, you
be reviewed after six months. After long-term     won t be   out any money-even for a short
PREP, your employment plan may be revised         time. If other funding sources are not
and you may be referred for more work or          available or are not enough to meet all your
training assignments to help you reach your       costs , your county must pay for the
job goals.                                        following:
     As you can see, the whole idea of GAIN            Child care costs for any of your children
is to give you a range of training and            who are under 12 ,     if necessary   for you to
services. You wil develop skils so you can        participate in GAIN. Your county wil help
find the job that's right for you. GAIN           you arrange for child care or you can make
with you all the way to make sure that            your own arrangements. You can choose the
nothing stands in the way of your success.        kind of child care you want , like a child care
                                                  center , relatives, friends or neighbors.
                                                  Payments can be made to licensed child care

                                                  providers and, in    some cases, to persons who
                                                  don t            licensed. Payments will be
                                                          need to be
                                                  made at the rate that is normally charged in
                                                  the area where you live. If you find      a job,
                                                  you may be able to get child care        payments
                                                  for another three months.

                                                      Transportation costs up to a       certin
                                                  amount for travel to and from your GAIN
                                                  assignment, and for you  and your children to
                                                  travel to and from child care.
                                                       Work- or training-related cOls up to
                                                  certain amount for books, tools and speial
                                                  clothing that you need as part of your GAIN
                                                  assignment.
                                                      If you need      persnal
                                                  you participate in GAIN
                                                                               co..
                                                                             , and Itl"te
                                                                                            to help
                                                                                              are
                                                  available in your community, tht county wil
                                                  refer you to those places which 1M) be able
                                                  to help you.

Section 6
                                             Ir",       Section 7


Your Contract                                                     Good Reasons for
                                                                  Not Participating
    Your contract is an important agreement.                   GAIN recognizes that you may have a
It tells you how you and the county       wil             good reason for not signing a contract to
work together so that you can get and keep                participate. for not taking part in one of the
a job. It is not a one-sided   contract. It   will            GA I N activities that you agreed to in your
make sure the county keeps its promises for               contract. or for not accepting a job       offer or
training and services   for as long as you are            job referral. Some of the se      reasons are
taking part in the GAIN program       and                     related to you personally and some are
receiving cash aid.                                           related to the assignment.

    Your GAIN worker wil help     you review
your contract. Your contract with the county
                 Reasons related to you:
tells you what you must do and what the                          . You are temporarily il or physically or

county must do to  make GAIN work for                         mentally unable to work.

you. The contract has two parts:                                 . You are required to appear in court or
   . The GAIN GENERAL AGREEMENT                               are in jail.
     (which includes this GAIN Guidebook).                       . You are having a family crisis or there is
     This agreement tells you about the                       a change in your family's circumstances. This
     program. the county's responsibilities.                  could include the death of your spouse.

     your rights and responsibilities . the good              parent or child. or any ilness that needs

     reasons you might have     for not                       your immediate attention.
     participating. and what the penalties       are             . Bad weather or other serious acts of
     if you refuse to participate without a                   nature prevent you from traveling to your
     good reason. This agreement applies as                   work or training assignment.
     long as you are in GAtN.                                    . Transportation arrangements fail and
   . The  GAIN ACTIVITY AGREEMENT                             other transportation cannot be arranged.
     This tells you in which part of the                         . You need a social service to participate
     program you are participating. This                      that has not been provided.

     changes as you move from activity          to               . You refuse to accept major medical
     activity.                                                services even if your refusal means that you
    Read ' your contract carefully. If you                    cannot participate in the program.
have any questions . be sure to ask your                         . Licensed or exempt child care is not
GAIN worker. You and your GAIN worker                         reasonably available during your training,
wil sign each agreement.
                                     employment or travel time. " Reasonably
    You must continue to participate in the                   available " child care includes having two
GAIN program . moving from one activity to                    choices that do not require:
another as you move toward your goal of                            - adding more than 30 minutes one-way
getting a job.                                                       to your travel time; or
     There are two ways that the contract                         - moving your child to a different school.
may end:                                                         . A breakdown or interruption in child
        . You stop receiving cash aid; or

                                                              care arrangements.

        . You become exempt or deferred.
                                                                 . Suitable child care is not reasonably
     (See Section 3.                                          available for children with disabilties, chronic
                                                              ilnesses or other special   needs.
                                                                 . You are currently employed or are in a
training program that meets the goals of                be a promotion for current                     employees
GAIN and you have notified and received
prior approval from your GAIN worker.                 - to fill a position               of a current   employee
    . Any good reason not listed above if               before proper personnel procedures or

your GAIN worker agrees.                                collective bargaining procedures have
      Note: You will not be subject to                  been applied 



penalties if you are absent or late less than         - to fill a position created by an
ten percent (10%) of the weekly hours       you         employers attempt to reduce payroll or
are required toparticipate. It is important             other costs by laying off current
that you know that the unused absent/ late              employe
hours cannot be applied to the next week.              - to fill a position created by a strike.
                                                        lockout or other labor disagreement                        VI'
Reasons related to the activity assignment,
job referral or job:                                   - to fill a position             any
                                                                                        that violates

   . Discrimination because of age. sex. race.

                                                        existing collective bargaining agreements
                                                        between employees and employers.
color, religion. national or ethnic origin.
physical or mental disability. political              . The job or work activity does not
Bffiliation or marital status.                     provide worker s compensation.
  . Travel to work or training from your              . Accepting a job or                    work activity would
home is more than two hours round trip by          cause you to          violate the terms of your union
                                   more
Mir, bus or other transportation. or               membership.
than two miles round trip if you have to              . The job requires more daily or weekly
walk because other transportation is not           hours than is normal or customary.

available.                                            . You are not receiving the supportive
    Note: The limit on travel and mileage          services agreed to in your contract.
does not include transportation time or               . Expenses such as clothes. books and
mileage to take members of your family to          tools are more than GAIN can pay for.
and from school or to and from other care             . The job is at a pay level that would
providers.                                         leave you with less income than what you
   . Conditions orresponsibilties that could       are now receiving unless the job fits the goals
be harmful to you physically or mentally or        of your employment plan.
that are not within your ability to do on      a      . Accepting a job or work activity would
regular basis.                                     interrupt or interfere with an approved
   . Conditions that   violate health and safety   education or training assignment. or would
standards.                                         keep you from returning to your regular job
   . Your training or educational program or       which is expected to be available soon.
job does . oot meet the goal of your                   Note: There are three exceptions to this
employment plan.                                   last reason. It would not apply to you if
    . Your job or training slot was created:       your training program is a PREP assignment.
     - to have you take the place   of a current
                                                   I t would not apply if the job offer provides
      cmployee                                     employment or gives you enough income to
                                                   lead to self-support             and is within your
     - to work the overtime    hours of    these   employment plan. And it would not apply to
      employees                                    you if the job is temporary while you are
     - to fil a position   that would normally     waiting to be rehired in your regular job.
                                                                     ~~~~
   Section 8 

                                                     Iril                          ;ci'I' QN1

   What Happens If You
   Do Not Participate


           As you know , participation in GAIN is           Financial Sanctions-Your family s cash
   mandatory for all able- bodied AFDC                 aid will be stopped or lowered if you fail or
   applicants and recipients. Exemptions and           refuse to meet program requirements without a
   deferrals are listed in Section 3.
                 good reason and conciliation does not work.

        If, for any reason , you do not partici­            Your family s aid payment will be
   pate, the following steps will be taken:            lowered by not including you in the payment.
                                                       If you are receiving aid because you are
       Cause Determination-If you do not               unemployed, and your wife/husband is not
  meet GAIN program requirements, you have             participating, she/he will be given the
  the right to explain why. The county will            opportunity to participate. If she/he does not
  decide if it is a good reason. (See Section 7.       participate, your family s aid payment will
                                                       be lowered by not including you and your
        If you have a good reason for not              wife/husband in the payment. If she/he does
   participating, your GAIN worker will help           participate, your family s aid will still be
   you so that you will be able to participate. If     lowered by not including you in the payment.
           s can t be made , you will not have to
(:iha
    artlclpate.                                            The first time, your family s aid will be
                                                       lowered until you do what GAIN requires.
           Conciliation-If you do not meet GAIN        The second time, your family s aid will be
  program requirements and your GAIN                   lowered for at least three months. After three
  worker decides there is not a good reason            months, the sanction will stop if you do what
  you have the right to have another county            GAIN requires. The third or additional time
  representative review this decision. If this         your family   s aid will be lowered for at least
  review determines that there is not a good           six months. After six months, the sanction
  reason, you and your GAIN worker wiII                will stop if you do what GAIN requires.
  develop a plan for you to meet the program
  requirements. This process can last no more               Note: Financial   sanctions do not apply
  than 30 days.
                                       to volunteers.
                                                            Penalty for Volunteers-If you volunteer
                                                       for the GAIN program but fail to meet the
                                                       requirements without a good reason, financial
                                                       sanctions will not apply to you. Instead, you
                                                       may not be allowed to paricipate in GAIN.
                                                               ..... n..
                                                                                  ; n

i Section 9

                                                                                 f;*!!.
  What You Can Do If
 You Do Not Agree

       There are four ways you can protest a                State Hearing-This is the same process
  program or pancipation requirement that you do       you can use when you do not agree with any
  not agree with.                                      action your local welfare office taes about
                                                       your cash aid. Your GAIN worker will help
       Formal Grievance Set by the                     you file for a State hearing if you want one.
  Unemployment Insurance Code-Your county              You can request a rehearing after the State
  wil offer a plan to help you solve the problem.      decision is reached.
  If you do not agree with your GAIN worker
  plan, you may design your own plan. The                  Depending on what process you use, and
  county wil work with you to decide on the            when you file an appeal, penalties (financial
  best plan for you to follow. This process can        sanctions) can be avoided. (See Section 8.
  last up to 30 days.
                                                            . If you use the formal grievance pro­
       Formal Grievance Set by the County              cesses, you must continue to meet program
- Board of Supervisors-This   is the process           requirements and participate until the
  adopted by your County Board of                      grievance is decided, or penalties will be
  Supervisors. Your GAIN worker will tell you          applied.
  how this grievance process works.
                                                            . If you have an independent assessment
       Independent Assessment-If you don
  agree with the results of your assessment or         done , no penalties will be applied while you
  employment plan, someone who is not a                await the results of the review.
  county representative will review your
  assessment and do another one if necessar.                . If you file for a State hearng before the
  The results of this . independent assessment         penalties start, penalties will not be applied
  will be used to set up your employment plan.         until after the hearing is decided.




  You have the right to seek legal advice during any of these processes. For help, contact your
  legal aid office at the address below:
     ..-                ---             '''''          ..,..   ...,..             .,--. "''''-'.'' '''''''''   ''._..




                                                  Here s how GAIN works

                              ..n....           - I(                    ..W'!i"
r-




                       BASIC ED.
                       ESL
                       GED

                                                                                                                        LONG­
                                                                                                                        TERM
                                                                                                                        PREP
           APPRAISAL
     A Final Word

    We wrote this Guidebook to tell
you how GAIN works for you and
how you can get the most out of the
program.
    This Guidebook should answer
most questions you may have about
supportive services, training and
education, job opportunities, your
contract, and your rights and
responsibilties. If you stil   have
                                Your
questions. please be sure to ask.
county GAIN staff is here to help you
and your family.
     Remember, the goal of GAIN is
to prepare you to compete for and
find a job-not a " make work" job,
but a job with a real future.

    GA I N is going to work in
California. By taking part in the
GAIN program, you wil go from
being dependent on welfare to being
independent through employment.
    Good Luck!
Notes

                       STATE OF CALIFORNIA
                      George Deukmejian, Governor
                   HEALTH AND WELFARE AGENCY

                      Clifford L. Allenby, Secretary
                  DEPARTMENT OF SOCIAL SERVICES
                       Linda S. McMahon, Director

PU 168   (7188)                                        88 78113

